COCKLE

‘ E-Mail Address:
Le ga | Brie fs contact@cocklelegalbriefs.com
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

No. 20-843

NEW YORK STATE RIFLE & PISTOL
ASSOCIATION, INC., ET AL., PETITIONERS
v.

KEVIN P. BRUEN, IN HIS OFFICIAL
CAPACITY AS SUPERINTENDENT OF
NEW YORK STATE POLICE, ET AL.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR CORPUS
LINGUISTICS PROFESSORS AND EXPERTS AS AMICI CURIAE SUPPORTING
RESPONDENTS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 5018 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 21st day of September, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL MOTARY-State of Nebraska Ke CL
1 RENEE J. GOSS 9 .
My Comm. Exp. September 5, 2023 =
Notary Public Affiant 41370
